                                                             Un ited States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General



                                                                    NOV 1 5 1011
Office of Management and Budget 

Attn: Ms. Regina Kearney 

New Executive Office Building 

Office of Federal Financial Management 

725 17th St., NW, Suite 6025 

Washington, DC 20503 


Dear Ms. Kearney:

In compliance with the Treasury Financial Manual, Part 2, Chapter 4700, "Agency Reporting 

Requirements for the Financial Report of the Un ited States," the Office of Inspector General 

(010) is providing the Independent Auditor's Report on the Us. Department a/State 2011 and 

2010 Special-Purpose Financial Statements (DIG Report No. AUDIFM-12-04). This report was 

prepared by Kearney & Company, P. C., an independent certified public accounting finn, at 

DIG ' s direction. Also provided are the following: 


      •	   GF003F Closing Package Financial Statement Report
      •	   GF004F Trading Partner Summary Note Report
      •	   OF003G Closing Package Line Reclassification Summary Report
      •	   GF006 FR Notes Report
      •	   GF007 Other FR Data Report
      •	   Management Representation Letter on the Closing Package (including Summary of 

           Uncorrected Misstatements) 


For your infonnation, we have provided the Department of the Treasury and the Government 

Accountability Office an identical letter. 


Sincerely,

~£).c..~
Harold W. Geisel 

Deputy I nspector General 


Enclosures: As stated.

cc:          (b) (6)
                       (b) (6)
                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




   INDEPENDENT AUDITORS’ REPORT ON THE U.S. DEPARTMENT OF STATE
         2011 AND 2010 SPECIAL-PURPOSE FINANCIAL STATEMENTS
                              AUD/FM-12-04


We have audited the accompanying reclassified balance sheets as of September 30, 2011 and
2010, and the related reclassified statements of net cost and changes in net position for the years
then ended (hereinafter referred to as the special-purpose financial statements) contained in the
special-purpose closing package of the U.S. Department of State (Department). These special-
purpose financial statements are the responsibility of Department management. Our
responsibility is to express an opinion on these special-purpose financial statements based on our
audits.

Except as described in the following paragraphs, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the special-purpose
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the special-purpose financial
statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall special-purpose financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our report dated November 15, 2010, we expressed an opinion that the special-purpose
financial statements present fairly, in all material respects, the financial position of the
Department as of September 30, 2010, and its net cost of operations and changes in net position
for the year then ended in conformity with accounting principles generally accepted in the United
States of America and the presentation pursuant to the requirements of the Treasury Financial
Manual (TFM), Volume I, Part 2, Chapter 4700.

During FY 2011, our audit procedures identified potentially material amounts relating to after-
employment benefits provided to locally employed overseas staff that had not been previously
reported in the Department’s special-purpose financial statements. These issues affect FY 2011
and FY 2010 balances and activity. The Department was unable to provide timely and complete
evidential matter to enable us to perform audit procedures to satisfy ourselves that actuarial
liabilities and benefit plan assets relating to after-employment benefit programs and their related
effect on net position were free of material misstatements. As a result of these limitations, our
present opinion on the Department’s FY 2010 special-purpose balance sheet and related
statement of changes in net position, as presented herein, is different from that expressed in our
previous report. Our previous opinion should not be relied upon.



                                                 1

As discussed in Note 17 to the FY 2011 special-purpose financial statements, the Department
restated its FY 2010 special-purpose financial statements to correct errors identified during the
course of the FY 2011 special-purpose financial statement audit related to amounts reported as
after-employment actuarial liabilities, benefit plan assets, and net position.

In our opinion, except for the effects of such adjustments, if any, as might have been determined
to be necessary had we been able to examine evidence related to after-employment benefits
provided to locally employed overseas staff, the special-purpose financial statements and
accompanying notes referred to above present fairly, in all material respects, the financial
position of the Department as of September 30, 2011 and 2010, and its net cost of operations and
changes in net position for the years then ended, in conformity with accounting principles
generally accepted in the United States of America and the presentation pursuant to the
requirements of TFM, Volume I, Part 2, Chapter 4700.

The special-purpose financial statements and accompanying notes contained in the special-
purpose closing package have been prepared for the purpose of complying with the requirements
of TFM, Volume I, Part 2, Chapter 4700, solely for the purpose of providing financial
information to the U.S. Department of the Treasury (Treasury) and the Government
Accountability Office (GAO) to use in preparing and auditing the Financial Report of the U.S.
Government and are not intended to be a complete presentation of the Department’s financial
statements.

The information included in the Other Data Report is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but it is
supplementary information required by TFM, Volume I, Part 2, Chapter 4700. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such information for
consistency with the related information presented in the Department’s special-purpose financial
statements. However, we did not audit this information, and accordingly, we express no opinion
on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued reports dated November 14, 2011, on our consideration of the Department’s
internal control over financial reporting and compliance and its compliance with certain
provisions of laws and regulations. Those reports are an integral part of an audit of general-
purpose financial statement reporting performed in accordance with Government Auditing
Standards and OMB Bulletin No. 07-04, as amended, and should be read in conjunction with this
report in considering the results of our audits.

In planning and performing our audits of the special-purpose financial statements, we also
considered the Department’s internal control over the financial reporting process for the special-
purpose financial statements and compliance with TFM Volume I, Part 2, Chapter 4700.
Management is responsible for establishing and maintaining internal control over financial
reporting, including Other Data, and for complying with laws and regulations, including
compliance with TFM, Volume I, Part 2, Chapter 4700, requirements.


                                                 2

Our consideration of internal control over the financial reporting process for the special-purpose
financial statements would not necessarily disclose all matters in internal control over the
financial reporting process that might be significant deficiencies. Under standards issued by the
American Institute of Certified Public Accountants, a material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s special-purpose financial statements will not be prevented
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness yet
important enough to merit attention by those charged with governance.

We found no material weaknesses in internal control over the financial reporting process for the
special-purpose financial statements, and our tests of compliance with TFM, Volume I, Part 2,
Chapter 4700, requirements disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 07-04, as amended.
However, providing opinions on internal control over the financial reporting process for the
special-purpose financial statements or on compliance with TFM, Volume I, Part 2, Chapter
4700, requirements were not objectives of our audits of the special-purpose financial statements,
and accordingly, we do not express such opinions.

This report is intended solely for the information and use of the Department, the Office of
Inspector General, the Treasury, OMB, and GAO in connection with the preparation and audit of
the Financial Report of the U.S. Government and is not intended to be and should not be used by
anyone other than these specified parties.




November 15, 2011




                                                 3

